September 28, 2007

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

GLORIA E. TYSON
DISTRICT MANAGER/POSTMASTER, CHICAGO DISTRICT

TODD S. HAWKINS
SENIOR PLANT MANAGER, CARDISS COLLINS PROCESSING AND
DISTRIBUTION CENTER

SUBJECT:     Audit Report – The Impact of Transportation on Chicago District
             Performance (Report Number NL-AR-07-008)

This report presents the results of our audit of U.S. Postal Service transportation
supporting mail delivery operations in the Chicago District (Project Number
07XG032NL000). Our audit objective was to determine whether transportation was
causing or contributing to the Chicago District’s poor performance. This audit is one of
several conducted based on a request from the Postmaster General and Chief
Executive Officer and a congressional request.

Postal Service transportation supporting the Chicago District includes nationwide
“network” transportation between cities, major facilities, and local post offices; and
“delivery” transportation between local post offices and neighborhood collection or
delivery points. Network transportation involves both contracted transportation and
transportation that uses Postal Service vehicles and employees. Network transportation
using Postal Service vehicles and employees is called Postal Vehicle Service.

We concluded that neither local transportation nor nationwide network transportation
issues were “root causes” or significant contributors to current Chicago District
performance challenges. However, we also concluded that transportation was not
efficient or cost-effective, and that transportation issues were potentially causing
inaccurate and understated mail counts. Specifically we identified unnecessary extra
trips that could have been consolidated, significant data weaknesses, inadequate
communication and planning, and inaccurate reporting of mail in trailers awaiting
transport. We recommended that management analyze transportation requirements,
apply any excess transportation resources to other critical needs, improve
transportation planning, and improve data collection by properly training and supervising
employees. Management agreed with our recommendations and specified various
initiatives, plans and actions to address the recommendations. Management’s
comments and our evaluation of these comments are included in the report.

The U.S. Postal Service Office of Inspector General (OIG) considers the
recommendations significant, and therefore requires OIG concurrence before closure.
Consequently, the OIG requests written confirmation when corrective actions are
completed. The recommendation should not be closed in the follow-up tracking system
until the OIG provides written confirmation that the recommendation can be closed.

We appreciate the cooperation and courtesies provided by your staff during the audit. If
you have any questions or need additional information, please contact Joe Oliva,
Director, Transportation, or me at (703) 248-2100.
 E-Signed by Colleen McAntee
ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
for Mission Operations

Attachments

cc: Patrick R. Donahoe
    William P. Galligan
    Anthony M. Pajunas
    Lynn Forness
    Katherine S. Banks
The Impact of Transportation on Chicago District Performance                      NL-AR-07-008



                                        INTRODUCTION
 Background                    In Chicago every day, the U.S. Postal Service collects mail
                               from 3,850 pick-up points and delivers it to over one million
                               local addresses. The Postal Service’s Chicago District
                               employs approximately 9,000 people; has 69 neighborhood
                               post offices; and manages 29 dedicated collection routes,
                               2,462 delivery routes, and 195 routes that combine both
                               collection and delivery. The Postal Service supports
                               Chicago with two major mail processing facilities — the
                               Cardiss Collins Processing and Distribution Center (P&DC)
                               in downtown Chicago and the Chicago Bulk Mail Center
                               (BMC), about 10 miles west on Interstate 290 in Forest
                               Park, Illinois. The Irving Park Road P&DC, northwest of
                               Chicago at O’Hare International Airport, also provides
                               limited additional mail processing capacity. For the location
                               of these facilities in the general Chicago region, see the
                               map on the following page.




     A PVS tractor-trailer
       crossing a busy
        intersection in
     downtown Chicago
         May 2, 2007.




 Postal Service                Postal Service transportation supporting the Chicago District
 Transportation                includes nationwide “network” transportation between cities,
 Supporting the Chicago        major facilities, and local post offices; and “delivery”
 District                      transportation between local post offices and neighborhood
                               collection or delivery points.

                               Network transportation involves both contracted
                               transportation and transportation using Postal Service
                               vehicles and employees. Network transportation using



                                                   1
The Impact of Transportation on Chicago District Performance                            NL-AR-07-008



                                Postal Service vehicles and employees is called Postal
                                Vehicle Service (PVS). Postal Service transportation
                                resources supporting Chicago include:

                                   •    The Chicago Vehicle Maintenance Facility (VMF)
                                        located near the Cardiss Collins P&DC in downtown
                                        Chicago.

                                   •    The Chicago Airport Mail Center (AMC) at Chicago’s
                                        O’Hare International Airport.

                                   •    The Chicago International Service Center (ISC) also
                                        located at O’Hare International Airport.

                                   •    The Chicago Metro Surface Hub on Busse Road in
                                        Elk Grove Village, Illinois (also frequently referred to
                                        as the Busse Hub).

                                   •    The Chicago Mail Transport Equipment Service
                                        Center (MTESC) in Bolingbrook, Illinois.

    The local network of
   Postal Service facilities
    supporting Chicago.                  Busse Hub
      The Busse Hub, the                                                                         Lake
                                                                                               Michigan
       Chicago ISC, the                              Chicago ISC
   Irving Park Road P&DC,
     and the Chicago AMC
                                    Irving Park Road P&DC
   are all located at or near          and Chicago AMC
      O’Hare International
             Airport.
  The Cardiss Collins P&DC
  and the Chicago VMF are
      near each other.
    The Chicago MTESC is
                                                                        Cardiss Collins P&DC
   located off Interstate 55,                               Chicago     and the Chicago VMF
  about 30 miles southwest                                   BMC
     of the Cardiss Collins
             P&DC.


                                The Chicago District PVS fleet has 260 PVS drivers or other
                                PVS employees, operates 139 PVS tractor-trailers or cargo
                                vans, and services 137 facilities in the Chicago region.
                                Chicago is also supported by 81 rail and highway
                                contractors operating more than 276 surface contract
                                routes. Postal Service air transportation contractors
                                servicing Chicago include Federal Express (FedEx), United
                                Parcel Service (UPS), American Airlines, United Airlines,




                                                     2
The Impact of Transportation on Chicago District Performance                         NL-AR-07-008



                                and other passenger air carriers. Chicago-based United
                                Airlines operates its major national hub at Chicago’s O’Hare
                                International Airport.

 Chicago Mail Delivery          During 2006, deficiencies in Chicago mail delivery began to
 Performance                    attract the attention of local community leaders, the media,
                                and the Illinois congressional delegation. Chicago residents
                                complained that mail was not delivered until after dark —
                                sometimes as late as 11:30 p.m. Local political leaders
                                explained that the complaints about mail spiked in late
                                summer or early fall.

                                Postal Service officials candidly acknowledged mail service
                                in Chicago — particularly Chicago-to-Chicago delivery of
                                both First-Class® and Standard Mail® — did not meet
                                Postal Service performance standards. They explained
                                staffing shortages, injured mail carriers, temporary workers,
                                and routes assigned to temporary carriers were, in many
                                cases, responsible for misdeliveries, late-night deliveries, or
                                no delivery at all.



      Rail traffic near the
       Chicago BMC on
        June 5, 2007.
        Bulk mail includes
   magazines, advertising,
        and merchandise
        shipped by major
   mailers like publishers,
     catalog companies, or
   online retail companies.
    It is less time-sensitive
       than First-Class or
   expedited mail and, as a
     result, transportation
     managers can move it
       over long distances
              by rail.




                                In February 2007 in an effort to resolve the problem, the
                                Deputy Postmaster General told Postal Service Chicago
                                District officials to work with congressmen, city aldermen,
                                city residents, and the political community and focus on two
                                things:




                                                   3
The Impact of Transportation on Chicago District Performance                           NL-AR-07-008



                                   •    Meeting Postal Service performance standards as
                                        measured by the Postal Service’s External First-
                                        Class (EXFC) measurement system.

                                   •    Taking care of customers.

                               In response, district officials ordered a review of every
                               aspect of Chicago’s mail system including collection,
                               transportation, sorting, and delivery. In addition, the
                               Postmaster General requested the U.S. Postal Service
                               Office of Inspector General (OIG) independently review
                               issues associated with Chicago District performance.

 Objective, Scope, and         Our audit objective was to determine whether transportation
 Methodology                   was causing or contributing to poor Postal Service
                               performance in Chicago.

                               As a partial framework for our examination, we used the
                               Postal Service’s “24-Hour Clock” concept. Senior
                               headquarters management, including Network Operations
                               and the Internal Control Group in headquarters Finance,
                               introduced the “24-Hour Clock" concept in February 2006 as
                               a mechanism to strengthen internal control and improve
                               performance. The concept specifies a series of
                               “key performance indicators,” sometimes called
                               “clock indicators,” that identify explicit points in time during
                               the Postal Service’s daily 24-hour cycle when various
                               operational activities should have been completed. The
                               concept then provides a mechanism for Postal Service
                               managers to identify and correct conditions or “root causes”
                               associated with any service failures. Activities, indicators,
                               or conditions associated with transportation include, but are
                               not limited to, the following:

                                   •    Collection mail arriving at processing or other
                                        facilities late, due to insufficient room on trucks.

                                   •    Mail leaving processing facilities late because of
                                        delayed or inadequate transportation

                                   •    Transportation delayed awaiting dispatch from
                                        originating facilities.




                                                   4
The Impact of Transportation on Chicago District Performance                       NL-AR-07-008




                                   •    Inaccurate or improperly entered data in the Postal
                                        Service’s computerized Transportation Information
                                        Management Evaluation System (TIMES).

                                   •    Late assignment of mail to Postal Service air
                                        transportation contractors including commercial
                                        passenger airlines, FedEx, or UPS.

                               We used these indicators or activities to examine the
                               effectiveness of Postal Service transportation supporting the
                               Chicago District. To assist us with our analysis, Postal
                               Service officials explained all 24-hour clock activities or




     PVS trucks passing
         through the
    Cardiss Collins P&DC
        security gate,
         May 2, 2007.




                               indicators must be integrated into one continuous 24-hour
                               flow and be effectively coordinated to ensure successful
                               mail collection, transportation, sorting, and delivery. They
                               emphasize the system relies on adequate staffing,
                               continuous communication, accurate data, a properly
                               trained and motivated workforce, effective supervision, and
                               a sense of urgency. We considered this added criteria
                               during our examination.

                               In addition to examining transportation supporting Postal
                               Service Chicago District operations in the context of the
                               “24-Hour Clock,” we interviewed officials from Postal
                               Service Headquarters, the Great Lakes Area, and the
                               Chicago District. We visited the Cardiss Collins P&DC, the



                                                   5
The Impact of Transportation on Chicago District Performance                      NL-AR-07-008



                               Chicago BMC, the Irving Park Road P&DC, the Chicago
                               VMF, the Chicago AMC, the Chicago Metro Surface Hub,
                               the Chicago MTESC, and three local Post Offices: Fort
                               Dearborn, Nancy B. Jefferson, and Northtown. We
                               interviewed Postal Service managers and employees, and
                               observed and photographed operations. We reviewed and
                               relied on our previous audit work in the Chicago District and
                               Great Lakes Area and examined relevant Postal Service
                               transportation contracts and collective bargaining
                               agreements. We also reviewed articles from the print and
                               broadcast news media, interviewed journalists, reviewed
                               testimony from public hearings, and examined OIG Hotline
                               and other complaints from Chicago residents and public
                               officials.




    The Irving Park Road
   P&DC is located next to
     the Chicago AMC at
      Chicago’s O’Hare
    International Airport,
        June 5, 2007.




                               We examined Postal Service computer-generated data to
                               analyze mail volume, the type of mail transported, and
                               on-time performance. We did not audit or comprehensively
                               validate the data; however, we noted several weaknesses
                               that constrained our work. For example, some computer
                               records had missing or inaccurate data and during our visits
                               we noted managers and employees were not always
                               properly entering transportation dispatch and arrival times or
                               load data. Even though data limitations and other
                               restrictions constrained our work, we were able to
                               compensate by applying alternate audit procedures,
                               including source document examination, observation,
                               physical inspection, and discussion with appropriate




                                                   6
The Impact of Transportation on Chicago District Performance                      NL-AR-07-008



                               officials. For example, we physically inspected the loads of
                               PVS tractor-trailers and cargo vans, made extensive
                               observations on loading and dispatch docks, interviewed
                               drivers, and discussed our observations with managers. In
                               addition, throughout our audit work, we discussed our
                               observations, preliminary conclusions, and preliminary
                               recommendations with district, area, and headquarters
                               officials and included their comments were appropriate.




   The Chicago District is
    supported by rail and
   highway transportation.

      These “intermodal”
      highway trailers are
    designed to be loaded
     onto rail flatcars and
   transported over the rail
           network.

   Photograph taken at the
       Chicago BMC,
        June 4, 2007.




                               We conducted work associated with this performance audit
                               report from April through September 2007 in accordance
                               with generally accepted government auditing standards.
                               Those standards require that we plan and perform audit
                               work to obtain sufficient, appropriate evidence to provide a
                               reasonable basis for our findings and conclusions based on
                               our audit objective. We believe the evidence obtained
                               provides a reasonable basis for our findings and
                               conclusions based on our audit objective.

 Related Audit                 The OIG has several on-going audits specifically addressing
 Coverage                      timeliness of mail service and financial accountability in the
                               Chicago District. Since 2002, we have issued a number of
                               reports that examined transportation-related activities or
                               programs in the Chicago District.




                                                   7
The Impact of Transportation on Chicago District Performance                     NL-AR-07-008



                               We are currently conducting nationwide audits of both the
                               Postal Service’s air transportation network and PVS fleet.
                               In both cases, our objectives are to determine whether
                               operations are effective and whether there are opportunities
                               to save money. Our plans for this work include audits of the
                               Chicago AMC and of PVS operations in the Chicago
                               District.




                                                   8
The Impact of Transportation on Chicago District Performance                      NL-AR-07-008



                                       AUDIT RESULTS
 Postal Service                Neither local transportation nor nationwide network
 Transportation in             transportation issues are “root causes” or significant
 Support of the                contributors to the local customer service or performance
 Chicago District              challenges the Chicago District has been experiencing.




   Local PVS transportation
           leaving the
    Irving Park Road P&DC
     northwest of Chicago,
          June 5, 2007.




                               Our analysis of documents and the evidence we obtained
                               from interviews, site visits, observations, and physical
                               inspections concluded that, although there are some
                               inefficiencies associated with transportation supporting
                               Chicago and improvements could be made, transportation
                               was not the cause of the local Chicago District problems.

 Local Transportation          Postal Service employees using Postal Service owned or
                               leased vehicles are the principal providers of local
                               transportation for the Chicago District. At various intervals
                               and times during the period April 30 through May 16, 2007,
                               using the 24-hour clock concept as a framework for our
                               analysis, we observed trip departures and arrivals from
                               network and local facilities in and around Chicago. We also
                               examined trip schedules, considered local traffic conditions,
                               and inspected the loads of tractor-trailers and cargo vans.
                               As a result, we concluded employees timely made all
                               afternoon and evening mail collection trips. With limited
                               exceptions, employees also timely delivered morning
                               dispatched carry mail to local post offices. For example:




                                                   9
The Impact of Transportation on Chicago District Performance                       NL-AR-07-008




                                   •   We observed 94 afternoon and evening collection
                                       trips. Managers were actively supervising trips; there
                                       were sufficient vehicles and personnel to support
                                       collection routes; and all mail from collection routes
                                       was transported from local post offices in PVS
                                       transportation in time to meet 24-hour clock
                                       indicators.




    A PVS cargo van in a
        local Chicago
    neighborhood, May 3,
            2007.




                                   •   We observed 166 morning trip dispatches.
                                       Transportation managers were actively supervising
                                       dispatches to local post offices; only eight trips (or
                                       less than 5 percent) were delayed; and, in all of those
                                       situations, the trips were delayed because processing
                                       plant employees could not move the mail to loading
                                       docks in time for scheduled dispatch.

                               As a result of our analysis and observations we concluded
                               that local transportation:

                                   •   Was sufficient to meet the Postal Service’s 24-hour
                                       clock indicators and performance standards.

                                   •   Was not a root cause or a significant contributor to
                                       the customer service and performance challenges
                                       the Chicago District has been experiencing.




                                                   10
The Impact of Transportation on Chicago District Performance                         NL-AR-07-008




                               However, we also concluded that local transportation was
                               not efficient or cost-effective and that transportation issues
                               were potentially causing inaccurate and understated mail
                               counts. For example:

                               Unnecessary Extra Trips – In order to meet scheduled
                               departure times and 24-hour clock performance indicators,
                               transportation managers frequently dispatched trucks
                               without full loads. Managers dispatched partially empty
                               trucks because they could routinely use excess PVS
                               resources to dispatch extra unscheduled trips. Managers
                               explained they were able to dispatch extra PVS trips
                               because, in contrast to scheduled contracted transportation,
                               PVS resources were readily available and provided great
                               flexibility. The managers acknowledged having excess PVS
                               vehicles and personnel on standby was costly, but
                               explained Chicago corrective action support plans required
                               them to dispatch scheduled trips on-time — whether the
                               trucks were full or not — and then call for extra PVS trucks if
                               needed.

                               Communication, Coordination, and Planning – During our
                               on-site visits to local facilities, we visited the Fort Dearborn,
                               Nancy B. Jefferson, and Northtown Post Offices. These
                               local post offices were not prepared for scheduled
                               transportation arrivals or departures because management
                               did not properly align transportation schedules with mail
                               processing activities and the schedules were constantly
                               changing. For example, schedules during our second week
                               of observations were significantly different from schedules
                               during our first week. Because of this scheduling volatility,
                               as well as the routine arrival of unscheduled trips, local
                               station personnel at all three post offices we visited were
                               uncertain or confused as to when trucks would arrive or
                               depart and, consequently, could not properly plan daily
                               operational activity.

                               Inaccurate and Understated Mail Counts – The Postal
                               Service Mail Condition Reporting System (MCRS) is
                               intended to provide managers with an accurate daily
                               inventory of mail volume on hand at facilities in the Postal
                               Service network. However, Chicago BMC managers
                               explained that when they prepare “standard” mail for
                               transport to Cardiss Collins, they place it in trailers for




                                                   11
The Impact of Transportation on Chicago District Performance                         NL-AR-07-008



                               dispatch, count it as “in transit,” and do not report it as
                               “volume on hand.” The managers also explained that, since
                               Cardiss Collins does not process the mail until the following
                               day, Cardiss Collins managers do not dispatch PVS
                               transportation to pick it up and, consequently, do not report
                               it either. BMC managers concluded that, as a result, the
                               mail in the BMC yard was effectively hidden and not
                               counted by either the BMC or Cardiss Collins, and MCRS
                               reports were inaccurate. They explained the problem was
                               partially due to not using plans or schedules to coordinate
                               processing with transportation. They said they did not use
                               transport schedules between the BMC and Cardiss Collins
                               because there were enough excess PVS resources to
                               provide the flexibility to call for transportation when needed.

                               Data Weaknesses – The Postal Service’s Vehicle
                               Information Transportation Analysis and Logistics (VITAL)
                               system is intended to capture daily PVS trip scheduling
                               information. It includes such data as scheduled departure
                               and arrival times and the driver’s name. The Postal
                               Service’s TIMES database contains PVS trip information,
                               contracted transportation data, actual arrival and departure
                               times, and information on the use of truck capacity. VITAL
                               interfaces with TIMES and is intended to feed it daily. The
                               Postal Service uses both systems for daily and long-term
                               transportation planning; however, our data examination
                               identified significant inaccuracies. For example:

                                   •   VITAL departure and arrival schedules were not
                                       accurate. This condition existed in part because data
                                       entry personnel could not keep up with the
                                       scheduling volatility we discussed earlier in the
                                       report. We discussed our observations with
                                       supervisors and managers at the plant and area, and
                                       they immediately initiated corrective action to improve
                                       scheduling. We did not assess the effectiveness of
                                       the corrective action during this audit.

                                   •   TIMES data on truck capacity use and “on-time”
                                       performance was inaccurate because loading or
                                       arrival dock personnel did not estimate it correctly,
                                       did not enter it correctly, or did not enter it at all.
                                       Senior Postal Service officials acknowledged those
                                       issues. They emphasized the problem was
                                       inadequate supervision and explained that local




                                                   12
The Impact of Transportation on Chicago District Performance                        NL-AR-07-008



                                       managers were required to properly supervise data
                                       collection and entry. They also said they would
                                       improve data reliability because they were phasing
                                       out TIMES and replacing it with the Surface Visibility
                                       system. They explained that, instead of using
                                       unreliable visual estimates, Surface Visibility would
                                       use scanned electronic data.

                               Transportation managers must continually balance on-time
                               performance with cost. Since transportation data is
                               currently inaccurate, managers cannot rely on it to
                               accurately plan daily operations or long-term transportation
                               requirements. Consequently, managers routinely express a
                               preference for costly excess transportation so they have the
                               flexibility to meet uncertain performance requirements.
                               Because Chicago managers need excess PVS
                               transportation on standby to meet unforeseen operational
                               contingencies, there is a high risk the Postal Service is
                               paying too much for local Chicago transportation.

                               In addition to limiting the ability of transportation managers
                               to plan daily operations and long-term transportation
                               requirements, inaccurate data restricted our work as well.
                               Those restrictions prevented us from quickly assessing the
                               magnitude of excessive local transportation costs. Although
                               data limitations restricted our current work, our observations
                               in the Chicago District were consistent with our findings in
                               previous network optimization work where we routinely
                               identified opportunities to increase effectiveness and reduce
                               transportation costs. As we proceed with previously
                               planned Chicago District work and conduct additional
                               analysis and observations, we anticipate that we will be able
                               to identify opportunities to reduce local transportation, more
                               precisely quantify excess cost, and make specific
                               recommendations to allow excess resources to be put to
                               better use.

 Recommendation                We recommend the District Manager/Postmaster, Chicago
                               District, and the Senior Plant Manager, Cardiss Collins
                               Processing and Distribution Center, coordinate to:

                               1. Analyze Chicago District Postal Vehicle Service (PVS)
                                  operations to identify excess PVS resources they can
                                  reduce and apply to other critical requirements.




                                                   13
The Impact of Transportation on Chicago District Performance                      NL-AR-07-008




 Management’s                  Management agreed with our recommendation. They
 Comments                      stated that they are working to identify excess PVS
                               resources. Management added they would analyze their
                               transportation resources once they complete reorganizing
                               their processing structure. Management’s comments, in
                               their entirety, are included in Appendix B.

 Recommendation                2. Improve communication and coordination between
                                  processing facilities and local post offices by improving
                                  local transportation planning and scheduling.

 Management’s                  Management agreed with our recommendation. They
 Comments                      explained they are monitoring the Cardiss Collins plan for
                               improving communication and coordination with local
                               stations. Specifically, they stated Cardiss Collins had
                               already implemented integrated operating plan agreements
                               with some stations, and would be adding additional stations
                               to improve mail flow and communication.

 Recommendation                We recommend the Vice President, Great Lakes Area
                               Operations:

                               3. Require managers at Cardiss Collins Processing and
                                  Distribution Center and the Chicago Bulk Mail Center to
                                  properly plan transportation between the two facilities
                                  and properly account for mail in trailers.

 Management’s                  Management agreed with our recommendation and said
 Comments                      they have been working to ensure transportation between
                               Cardiss Collins and the Chicago Bulk Mail Center was
                               properly planned. They also stated that local mail
                               processing personnel would be trained on how to properly
                               record on-hand mail in the Mail Condition Reporting System.

 Recommendation                4. Require managers to improve data collection by properly
                                  training and supervising employees on transportation
                                  systems, such as Surface Visibility.

 Management’s                  Management agreed with our recommendation.
 Comments                      Management stated they are working with local Cardiss
                               Collins personnel to improve data collection activities
                               associated with systems such as Surface Visibility and
                               Vehicle Information Transportation Analysis and Logistics.




                                                   14
The Impact of Transportation on Chicago District Performance                    NL-AR-07-008



                               Management stated they will continue to train and supervise
                               the employees who work with these transportation systems.

 Evaluation of                 Management’s comments are responsive to our findings and
 Management’s                  recommendations. Management’s actions, taken or planned
 Comments                      should correct the issues identified in the findings.




                                                   15
The Impact of Transportation on Chicago District Performance                       NL-AR-07-008




 Nationwide Network            Like local transportation, neither air nor surface nationwide
 Transportation                network transportation is a “root cause” or significant
                               contributor to local performance challenges in the Chicago
                               District.

 The Air Transportation        In January 2006, management formalized a nationwide
 Network                       integrated air strategy and briefed the Board of Governors
                               (BOG) on it. Management explained that passenger airlines
                               were not as reliable as the Postal Service needed them to
                               be. Under the strategy, the Postal Service would reduce
                               reliance on passenger airlines, expand existing air
                               transportation with FedEx and UPS, and, where possible,
                               shift mail moved by air to less costly ground transportation.




    The Chicago AMC at
      Chicago’s O’Hare
    International Airport,
        June 5, 2007.




                               On June 30, 2006, when the Postal Service mail
                               transportation contract with 40 passenger air carriers
                               expired without renewal, the Postal Service evaluated the
                               performance of the carriers and asked only selected airlines
                               to continue. On September 29, 2006, the Postal Service
                               announced new air transportation contracts with seven
                               airlines. The Vice President, Network Operations, explained
                               that relying on passenger airlines with established records of
                               performance would help the new contracts achieve on-time
                               delivery and provide the highest levels of service. Senior
                               Postal Service officials explained that Chicago-based United
                               Airlines was not one of the passenger airlines the Postal




                                                   16
The Impact of Transportation on Chicago District Performance                      NL-AR-07-008



                               Service asked to continue as a domestic air transportation
                               contractor, citing United’s past record of inadequate
                               “on-time” performance.


      Postal Service air
       transportation
    contractors servicing
   Chicago include FedEx,
   UPS, and various select
     passenger airlines.

     Here UPS planes are
    pictured on the tarmac
      at Chicago’s O’Hare
     International Airport,
          June 5, 2007.




                               The Postal Service’s nationwide transportation network is
                               dynamic and requirements constantly change. On March
                               30, 2007, the Postal Service reinstated the domestic air
                               transportation contract with United Airlines and on April 28,
                               2007, United Airlines resumed domestic mail transportation
                               operations. The new United Airlines contract specified a
                               start-up period during which mail transportation operations
                               would be limited and stipulated the carrier would be subject
                               to closely monitored on-time performance measures. Senior
                               Postal Service officials explained that renewed United
                               Airlines flights into and out of O’Hare International Airport
                               might have some limited impact on local Chicago District
                               issues, but stipulated that flying mail on United Airlines is
                               very expensive compared to surface transportation. In
                               accordance with Postal Service transportation network
                               strategy, the Postal Service would prefer to use surface
                               transportation, where possible.

                               During our audit, a Cardiss Collins P&DC manager
                               complained that mail from O’Hare International Airport
                               inbound to Chicago from cities across the country did not
                               arrive at Cardiss Collins until late in the afternoon. We
                               reviewed the Cardiss Collins manager’s complaint by
                               analyzing data, observing operations, and interviewing
                               transportation managers and officials at Cardiss Collins, the
                               Chicago AMC, the Great Lakes Area, and Postal Service
                               Headquarters. We found that the Postal Service’s
                               integrated air strategy causes most mail flown to O’Hare to




                                                   17
The Impact of Transportation on Chicago District Performance                                   NL-AR-07-008



                               arrive on FedEx, American Airlines, or UPS aircraft — and
                               the aircraft generally arrive according to plan and contract
                               requirements. The following chart illustrates the mail volume
                               and on-time performance associated with mail and carriers
                               arriving at O’Hare during May 2007.

                                      Domestic Mail Received at O’Hare International Airport – May 2007

                                               Air                     Pounds      Percent      On-Time
                                              Carrier                  Carried     Carried     Percentage

                              FedEx Day (First-Class & Priority)       2,224,652      53.85       94.30
                              American Airlines                          632,120      15.30       95.90
                              FedEx Night (Express Mail only)            524,773      12.70       96.60
                              UPS                                        391,425       9.47            *
                              United Airlines                            140,353       3.40       97.00
                              U.S. Airways                               101,267       2.45       97.80
                              Continental Airlines                        93,591       2.27       98.40
                              JetBlue                                     22,451       0.54       99.90
                              Northwest Airlines                             750       0.02         NA*

                              Total                                    4,131,382       100

                                           * Data not available.


                               Postal Service transportation managers explained that,
                               generally, flight arrival times into O’Hare were in accordance
                               with contracted transportation plans and schedules. They
                               explained flight mail load volumes and arrival times were
                               recorded in the Postal Service’s automated National Air and
                               Surface System (NASS), but stipulated some NASS data
                               was incomplete. We identified the following general
                               information based on our examination of NASS data;
                               additional information from on-site Postal Service managers;
                               and data, records, or statements from various sources:

                                      FedEx – Under agreement with the Postal Service,
                                      FedEx flies mail to and from Chicago Tuesday through
                                      Sunday. Tuesday through Saturday mail arrives at
                                      O’Hare at about 8:40 p.m. On Sunday, mail arrives at
                                      O’Hare at about 6:00 p.m. Mail flown on FedEx
                                      generally arrives in accordance with plans, schedules,
                                      and contract provisions. Postal Service AMC employees
                                      do not conduct terminal handling services (THS) for
                                      FedEx transported mail. Instead, management
                                      outsources this task to THS contractors. The THS
                                      contractor at O’Hare for mail transported by FedEx is
                                      Evergreen Aviation Ground Logistics Enterprises, Inc.
                                      Evergreen’s Chicago operations are conducted from and
                                      within the Postal Service Chicago AMC.



                                                        18
The Impact of Transportation on Chicago District Performance                        NL-AR-07-008




                                    UPS – Under agreement with the Postal Service, UPS
                                    flies mail to and from Chicago Tuesday through
                                    Saturday where it arrives at O’Hare by 7:30 a.m. Mail
                                    flown by UPS generally arrives in accordance with plans,
                                    schedules, and contract provisions. Terminal handling
                                    for mail flown by UPS is also outsourced, but rather than
                                    using a THS contractor, UPS provides the service itself.
                                    Under contract provisions with the Postal Service, UPS
                                    employees remove mail from aircraft, move it by tug and
                                    dolly to the Postal Service AMC, unload it from the air
                                    containers, and then load it into Postal Service
                                    “over-the road” containers for onward surface
                                    transportation.




      UPS and American
    Airlines air containers
       on dollies on the
     O’Hare International
   Airport ramp behind the
         Chicago AMC,
         June 5, 2007.




                                    Commercial Passenger Airlines – The passenger airlines
                                    provide the Postal Service with the greatest flexibility.
                                    Under agreement with the Postal Service, passenger
                                    airlines fly mail to and from Chicago every day where it
                                    arrives throughout the course of the day. When it
                                    arrives, Postal Service AMC employees recover it from
                                    the airlines and then prepare it for onward transportation.

                                    PVS Transportation – There are 27 daily PVS trips
                                    between the Chicago AMC and the Cardiss Collins
                                    P&DC. Transportation managers at the Chicago AMC
                                    and the Cardiss Collins P&DC explained that the 27 PVS
                                    trips are sufficient to immediately move mail arriving at
                                    O’Hare from the AMC to Cardiss Collins and other
                                    facilities in or around the Chicago District.



                                                   19
The Impact of Transportation on Chicago District Performance                       NL-AR-07-008




                               As a result of our data analysis, observations, and interviews
                               concerning the Cardiss Collins’ manager’s complaint, we
                               concluded that mail arriving at O’Hare was generally arriving
                               in accordance with plans, schedules, and contract provisions
                               and that neither nationwide air network transportation nor
                               local PVS transportation were significant contributors to local
                               Cardiss Collins performance challenges. Nonetheless, we
                               plan to examine internal AMC issues more closely during
                               our upcoming audit of the Chicago AMC to determine
                               whether any internal delays within the Chicago AMC are root
                               causes of current Chicago District problems. Accordingly,
                               we will defer any recommendations until that time.

 The Surface                   The Postal Service’s nationwide surface transportation
 Transportation                network development strategy is focused on achieving
 Network                       network optimization by:

                                   •   Reducing expensive air transportation where possible
                                       and shifting mail previously flown by air to less
                                       expensive surface transportation, consistent with
                                       Postal Service on-time performance standards.

                                   •   Reducing the number of surface trips by consolidating
                                       loads, maximizing vehicle capacity, and eliminating
                                       unneeded trips.

                               Surface transfer centers (STCs) — sometimes called hubs
                               — are critical nodes in the Postal Service’s surface
                               transportation network. According to Postal Service
                               transportation officials, they form the foundation of the
                               Postal Service’s surface network. STCs serve the same
                               purpose as passenger airline hubs where people fly to a hub
                               from origins around the country, then transfer to planes
                               leaving the hub for final destinations. Whether part of an air
                               or surface transportation network, the transportation industry
                               uses the hub system as a network optimization architecture
                               (or design) intended to maximize network capacity and
                               minimize network cost.




                                                   20
The Impact of Transportation on Chicago District Performance                         NL-AR-07-008




                               Postal Service STCs provide concentration points where
                               mail transported from locations across the country is
                               received, consolidated, and then transferred to vehicles
                               leaving the hub for final destinations. This technique allows
                               the Postal Service to combine loads, maximize vehicle
                               capacity, dispatch full vehicles, and save money by
                               eliminating unneeded trips. Transportation industry experts
                               explain that hub transportation systems are generally more
                               efficient and less costly than direct origin-to-destination
                               systems, but cite exceptions when demand or volume
                               maximizes direct route capacity and makes consolidation
                               unnecessary. The Postal Service’s ground transportation
                               network currently operates 20 STCs and plans to open three
                               additional STCs during fiscal year (FY) 2007.

                               Although the Postal Service’s nationwide surface
                               transportation network support of the Chicago District is not
                               a root cause or significant contributor to current Chicago
                               District performance problems, like local transportation, it is
                               not efficient or cost-effective.

                               The Chicago Metro Surface Hub — frequently referred to as
                               the Busse Hub — is located on Busse Road in Elk Grove
                               Village, Illinois. It is the largest STC in the Postal Service’s
                               transportation network. It is near Interstate 90, where trucks
                               can easily access it from the interstate highway system. It is
                               also located near O’Hare International Airport. The Busse
                               Hub receives mail transported from origins across the
                               county, consolidates the mail, then transfers the mail to
                               trucks leaving the hub for final destinations.

                               The Busse Hub was originally intended to operate only as a
                               mail transfer center, but when its reporting structure shifted
                               from Great Lakes Area control to local Chicago District
                               control, local priorities took precedence, processing
                               functions were added, and, as a result, the original network
                               transportation function was adversely impacted. In addition
                               to its nationwide surface network function, the hub services
                               local processing facilities in the greater Chicago region.
                               These facilities are frequently referred to as “ring” facilities
                               because they form a ring around Chicago.

                               In early 2007, a task force that included management, the
                               Postal Inspection Service, and the OIG, examined the




                                                   21
The Impact of Transportation on Chicago District Performance                                          NL-AR-07-008



                                mission of the Busse Hub. The task force concluded the
                                Chicago District expanded the role of the Busse Hub beyond

                                               Palatine P&DC




                                                                Busse
                                                                  Hub
                                                                                                        Lake
                                                                        Irving Park Road P&DC         Michigan

                                       Carol Stream P&DC
     Postal Service “ring”
    facilities in the greater
       Chicago region.
                                                                        Chicago BMC              Cardiss Collins
                                                                                                     P&DC




                                                                                South Suburban
                                    Fox Valley P&DC                                 P&DC



                                                      Chicago
                                                      MTESC



                                the original intent and, as a result, compromised the hub’s
                                mission. The task force specified that:
                                   •     The Busse Hub was not designed to efficiently
                                         process mail.

                                   •     Processing inefficiencies were interfering with hub
                                         mail consolidation and transfer functions.

                                   •     Mail was not properly consolidated.

                                   •     Too much local mail volume was passing through the
                                         hub and, consequently, was delaying timely
                                         transportation dispatch.

                                The task force also specified interference with the
                                consolidation, transfer, and dispatch functions was causing
                                trucks to be dispatched with less than full loads; this meant
                                the Postal Service dispatched more trucks than needed and
                                spent more money on transportation than necessary. The
                                task force recommended, in part, that management separate
                                Busse network transportation functions from local
                                operations.




                                                        22
The Impact of Transportation on Chicago District Performance                       NL-AR-07-008



                               Postal Service officials subsequently reiterated that Busse
                               congestion was caused, in part, by too much mail volume
                               flowing through the hub from local operations. They
                               explained that much of the local volume was unnecessary
                               because many trips between Chicago “ring” facilities were
                               already full and did not require consolidation. They



        A Postal Service
       Inter-Departmental
   Task Force report, dated
         March 16, 2007,
     concluded the Busse
    Hub was not designed,
   intended or equipped to
    process Standard Mail.
       The task force also
      concluded local mail
      flowing through the
         Busse Hub was
    interfering with surface
    transportation network
            functions.

       The Busse Hub
    Standard Mail staging
     area, June 5, 2007.




                               emphasized that, as a result, they could route local trips to
                               bypass the Busse Hub and lighten the Busse load. They
                               stipulated that, as part of their “Chicago Busse STC
                               improvement strategy,” they were planning to bypass the
                               Busse Hub where possible and use direct transportation
                               between facilities in the local Chicago region.

                               On May 29, 2007, Postal Service Headquarters
                               transportation officials proposed to reduce both contract and
                               PVS trips to and from Busse by:

                                   •   Defining the Busse STC role and using Busse as a
                                       hub transfer and consolidation facility.

                                   •   Maximizing long-distance highway contract trip
                                       capacity, bypassing Busse with full loads, and
                                       dispatching directly from origin-to-destination where
                                       feasible.




                                                   23
The Impact of Transportation on Chicago District Performance                       NL-AR-07-008



                                   •   Discontinuing local transfer at Busse and, instead,
                                       using direct trips between local ring facilities.

                                The conclusions of the task force and the subsequent
                                statements, plans, and proposals of Postal Service officials
                                were consistent with our own previous nationwide network
                                optimization work. Since 2004, we have examined
                                33 contracts involving 297 trips into or out of Busse. As a
                                result, we made numerous recommendations to consolidate


       To improve Busse
  operations, transportation
        officials propose
  bypassing Busse with full
     truckloads from other
     network STCs. As an
   example, they explain full
      truckloads from the
  Indianapolis, Indiana, STC
   could bypass Busse and
   go directly to the Cardiss
         Collins P&DC.
      Highway trucking
   contractor departing the
      Indianapolis STC,
        April 20, 2007.




                                loads, maximize vehicle capacity, and eliminate
                                unnecessary trips by consolidating mail on other trips. Our
                                audits concluded management could implement the
                                transportation reductions affecting the Busse Hub without
                                affecting mail on-time performance and would potentially
                                save about $4.1 million over the life of affected contracts.
                                For more detailed information about these reports, see
                                Appendix A.

                                We did not fully examine management’s strategy to bypass
                                the Busse Hub and use direct transportation where feasible
                                during this audit. However, we did not identify any surface
                                network transportation issues — or issues associated with
                                Busse Hub congestion — that could be considered root
                                causes or significant contributors to the local customer
                                service challenges the Chicago District has been
                                experiencing.




                                                   24
The Impact of Transportation on Chicago District Performance                     NL-AR-07-008



                               As we proceed with previously planned work on local
                               Chicago District PVS operations, we will have an opportunity
                               to more closely examine local transportation issues
                               associated with Busse and identify opportunities to increase
                               efficiency, reduce costs, and make specific
                               recommendations. Accordingly, we will defer any
                               recommendations until that time.

 Audit Exit                    On June 29, 2007, we met with Great Lakes Area officials.
 Conference and                The officials agreed with our findings and recommendations.
 Implementation                They said that because of existing Chicago District
                               challenges, they did not want to reduce PVS resources
                               immediately, but agreed to analyze Chicago District PVS
                               inefficiencies during FY 2008. We concurred that it was
                               prudent to defer any PVS reductions until after Chicago
                               District operations stabilized. The area officials also said
                               they would immediately begin working with local Chicago
                               District officials to implement our three remaining
                               recommendations.

                               On June 12, 2007, we discussed our report with the Vice
                               President, Network Operations, who agreed with our
                               findings and recommendations.




                                                   25
     The Impact of Transportation on Chicago District Performance                                                          NL-AR-07-008



                                                                    APPENDIX A

                                CHICAGO METRO SURFACE HUB PRIOR AUDIT COVERAGE

                                                                                                     Chicago Metro Surface Hub Savings Identified
                                                                        Date      Total Potential                Chicago Metro
                                                                        Final        Savings         Highway      Surface Hub
                                                          Report       Report     Identified - All   Contract       Savings
                   Report Name                            Number       Issued       Facilities        Route        Identified      Postal Position

 Highway Network Scheduling - Great Lakes Area        NL-AR-04-003    3/29/2004       $ 5,352,877     607M5           $ 991,208           Agreed
                                                                                                      607L9             292,844           Agreed
                                                                                                      60893             528,902           Agreed
                                                                                                      606L3             222,561           Agreed

 BMC Transportation Routes - Great Lakes Area         NL-AR-04-004    9/29/2004         7,660,533     607M2             106,677           Agreed
                                                                                                      607M8           1,056,062           Agreed

 P&DC Transportation Routes - Great Lakes Area        NL-AR-06-008    7/25/2006         5,289,849     607M6             284,958        Agreed
                                                                                                      607L5             641,788       Disagreed
 Total                                                                               $ 18,303,259                    $ 4,125,000


BMC – Bulk Mail Center
P&DC – Processing and Distribution Center




                                                                         26
The Impact of Transportation on Chicago District Performance   NL-AR-07-008




                                          APPENDIX B

                              MANAGEMENT’S COMMENTS




                                                   27
The Impact of Transportation on Chicago District Performance   NL-AR-07-008




                                                   28
